No. _______
_________________________
IN THE

Supreme Court of the United States
_________________________
JOHN M. PAZ,

Applicant,

v.
DIRECTOR, DIVISION OF TAXATION,

Respondent.

_________________________

APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR A WRIT OF CERTIORARI TO THE
SUPERIOR COURT OF NEW JERSEY, APPELLATE DIVISION
_________________________
TO THE HONORABLE SAMUEL A. ALITO, JR., ASSOCIATE JUSTICE OF THE SUPREME
COURT OF THE UNITED STATES AND CIRCUIT COURT JUSTICE FOR THE THIRD CIRCUIT:
Pursuant to Supreme Court Rules 13.5, 22 and 30, petitioner respectfully
requests a 30-day extension of time, up to and including January 21, 2020 (after
taking Saturday, Sunday and a federal legal holiday into account) to file a petition
for a writ of certiorari to the Superior Court of New Jersey, Appellate Division, to
review that court’s decision in John M. Paz v. Director, Division of Taxation, 31 N.J.
Tax 76 (App. Div. 2019), petition for certification to Supreme Court of New Jersey
denied September 20, 2019. (The opinion of the New Jersey Appellate Division is
attached as Exhibit A. The Order of the Supreme Court of New Jersey denying
certification is attached as Exhibit B.) The jurisdiction of this Court will be invoked
under 28 U.S.C. sec. 1257(a). The time for filing a petition for a writ of certiorari

will expire on December 19, 2019 unless an extension is granted. This application
is being filed more than ten days prior to the date on which the time for filing the
petition would expire.
This case presents substantial and important questions involving state
income taxation of interstate business activity that have not previously been
directly addressed by this Court. The parties have been engaged in settlement
discussions over the past several weeks, causing petitioner to refrain from
preparing a petition for a writ of certiorari in the hope that the matter could be
resolved. The situation has now reached the point where petitioner can no longer
delay the preparation of his petition. A 30-day extension will enable petitioner to
prepare an appropriate petition to be filed in a timely manner.
Accordingly, petitioner respectfully requests that an order be entered
extending the time to file a petition for a writ of certiorari for a period of 30 days, up
to and including January 21, 2020.

Respectfully submitted,

/s/ Jerome B. Libin
JEROME B. LIBIN

Counsel of Record

December 6, 2019

JEFFREY A. FRIEDMAN
EVERSHEDS SUTHERLAND (US) LLP
700 Sixth Street, NW, Suite 700
Washington, DC 20001
(202) 383-0100

-2-

